Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




NEW JERSEY CLAIMED EXCESSIVE
 MEDICAID DISPROPORTIONATE
  SHARE HOSPITAL PAYMENTS
     TO FOUR HOSPITALS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       March 2014
                                                      A-02-10-01042
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                  INTRODUCTION

WHY WE DID THIS REVIEW

Under the Medicaid Disproportionate Share Hospital (DSH) program, the New Jersey
Department of Human Services (State agency) is required to make payments to hospitals that
provide significant amounts of uncompensated care 1 to Medicaid and low-income populations.
These DSH payments may not exceed the hospitals’ uncompensated care costs for providing
services to patients who are eligible for Medicaid or have no health insurance for services
provided during the year (known as the “hospital-specific limit”). 2 While performing a survey of
DSH payments, we determined that the State agency lacked controls to prevent DSH payments
from exceeding hospital-specific limits.

OBJECTIVE

The objective of this review was to determine whether the State agency claimed Federal
reimbursement for DSH payments that exceeded hospital-specific limits for State fiscal year
(SFY) 2007.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer Medicaid. At
the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers Medicaid.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Disproportionate Share Hospital Program

The State agency is required to make special payments, known as DSH payments, to hospitals
that serve a disproportionate share of low-income or uninsured patients. DSH payments may not
exceed the hospital-specific limit.

New Jersey’s Disproportionate Share Hospital Program

In New Jersey, the State agency administers the DSH program. The State agency estimates the
hospital-specific limit for each hospital using historical data from a prior year. The Medicaid
State plan requires that these estimated payments made to the hospitals on a quarterly basis be
subsequently adjusted on the basis of the hospitals’ actual costs.

1
  Uncompensated care costs are costs incurred to provide services to Medicaid and uninsured patients less payments
received for those services.
2
    Social Security Act, section 1923(g)(1)(A).


New Jersey Medicaid Disproportionate Share Hospital Payments (A-02-10-01042)                                     1
HOW WE CONDUCTED THIS REVIEW

Our review covered DSH payments made by the State agency totaling $1,112,253,434
($556,126,717 Federal share) to 92 hospitals during SFY 2007 (July 1, 2006, through
June 30, 2007). We verified the State’s calculation of the hospital-specific limit and compared
hospitals’ actual cost data to the DSH payments made by the State agency. Appendix A contains
the details of our audit scope and methodology.

                                                    FINDING

The State agency generally claimed Federal reimbursement for DSH payments that did not
exceed hospital-specific limits. Specifically, the State agency claimed reimbursement for DSH
payments totaling $1,068,243,898 ($534,121,949 Federal share) to 88 hospitals that did not
exceed the hospital-specific limit. However, the State agency claimed reimbursement for DSH
payments to four hospitals that exceeded the hospital-specific limit by $44,009,536 ($22,004,768
Federal share). 3 (See table below.) The overpayments occurred because the State agency had
not established procedures for reconciling and adjusting DSH payments to hospital-specific
limits.

                 Table: Unallowable Disproportionate Share Hospital Payments
                                                    Payment                    Federal
                                    Hospital-        Made to         Total     Share of
               Hospital           Specific Limit     Hospital    Difference   Difference
    Raritan Bay Medical Center       $25,387,623    $25,397,829       $10,206      $5,103
    Jersey City Medical Center        55,589,781     94,399,835   38,810,054  19,405,027
    Capital Health System at Fuld     19,521,438     20,870,371     1,348,933     674,467
    Mount Carmel Guild                   594,907      4,435,250     3,840,343   1,920,171
      Total                         $101,093,749 $145,103,285 $44,009,536 $22,004,768

                                           RECOMMENDATIONS

We recommend that the State agency:

      •    refund $22,004,768 to the Federal Government and

      •    establish procedures for reconciling and adjusting DSH payments to hospital-specific
           limits.




3
    Owing to lack of documentation, we excluded $100,468,569 applicable to five county hospitals from our review.


New Jersey Medicaid Disproportionate Share Hospital Payments (A-02-10-01042)                                        2
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our recommendation
that it refund the $22,004,768 in DSH overpayments to the Federal Government, concurred with
our recommendation that it establish procedures for reconciling and adjusting DSH payments to
hospital-specific limits, and described steps that it had taken or planned to take to implement this
recommendation.

The State agency stated that payment information it initially provided to us for the 92 hospitals
that received DSH payments during SFY 2007 included estimated costs for uninsured patients.
The State agency further stated that it had deferred to an independently certified DSH audit
required by CMS to reconcile its actual uninsured cost information to estimated data used to
calculate hospital-specific DSH limits. However, because the DSH audit included several
caveats, the State agency prepared a “reconciling calculation” for OIG auditors. On the basis of
this calculation, the State agency claimed excess DSH payments for four hospitals.
Subsequently, the State agency provided the OIG auditors additional, “more accurate”
information applicable to uninsured clients for the four hospitals. Using the new information, the
State agency calculated that three of the four hospitals identified in our report did not receive
excess DSH payments in SFY 2007. The State agency stated that the excess DSH payment to
the remaining hospital (Mount Carmel Guild) was $634,391 (Federal share $317,196).

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and additional information, we maintain that our
finding and recommendations are valid because the additional information was incomplete and
potentially unreliable. Specifically, the State agency did not provide additional information for
all 92 hospitals that received DSH payments. Rather, the State agency provided data only for the
four hospitals identified in our report. Further, we could not rely on the State agency’s new
information because it did not reconcile to audited cost reports.

For our review, we used audited cost reports to verify hospital-specific limits. Specifically, we
reviewed the reconciling calculation and supporting documentation for uninsured patient cost
data for 92 hospitals provided by the State agency. Using this calculation, we identified that the
State agency claimed excess DSH payments for four hospitals. The State agency subsequently
used a different source for its uninsured patient cost data and provided a revised hospital-specific
DSH limit for these four hospitals. However, we could not rely on this additional information
because the uninsured patient cost data did not reconcile to audited cost reports. Further, to be
consistent in determining the overall effect of the State agency’s revised reconciliation, the State
agency would have to provide reliable information for all 92 hospitals, not just the 4 hospitals
identified in our report.




New Jersey Medicaid Disproportionate Share Hospital Payments (A-02-10-01042)                       3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our review covered DSH payments made by the State agency totaling $1,112,253,434
($556,126,717 Federal share) to 92 hospitals during SFY 2007. Our objective did not require an
understanding or assessment of the State agency’s overall internal control structure. We limited
our review to gaining an understanding of the State agency’s procedures for calculating DSH
payments.

We performed our fieldwork at the State agency’s offices in Trenton, New Jersey, from
October 2010 through February 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State requirements;

    •   obtained from the State agency a list of 97 hospitals that received DSH payments during
        SFY 2007;

    •   reviewed the State agency’s Quarterly Medicaid Statement of Expenditures for the
        Medical Assistance Program, Form CMS-64, for the period July 1, 2006, through
        June 30, 2007, to determine DSH payments claimed for Federal reimbursement;

    •   obtained from the State agency the DSH hospital-specific limit methodology and its
        calculations for 92 of the 97 hospitals; 4

    •   for each hospital with DSH payments exceeding hospital-specific limits, obtained the
        hospital’s cost reports and reports from the State agency’s payment database to verify
        figures in the State agency’s calculations;

    •   compared the hospital-specific limit to payments the State agency made to each hospital
        to determine whether any hospitals received payments in excess of their limits; and

    •   discussed the results of our review with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

4
 We excluded five hospitals from our review because the State agency did not provide documentation to support its
payments to these facilities.


New Jersey Medicaid Disproportionate Share Hospital Payments (A-02-10-01042)                                    4
                                APPEN DIX B: STATE AGENCY COMMENTS 





                                                   ~brh .of ~~fu 11~rseu
     C•IRIS CHRISTI E 	                           DEPARTMENT OF HUMAN SERVICES
         Governor                      DIVISION OF MEDICAL ASSISTANCE AND       HEALnt SERVICES 

     KIM GUADAGNO                                           POBox 112

                                                                                                              JENNIFElt   Vau
       LJ.   Govert~or                                 TReNTON, NJ 08625..()112
                                                                                                               C<Jmrflissioi!U

                                                           November 22 , 20 13 	                              VAURIEHARR
                                                                                                                    Dinctor



                  Report Num ber A-02-10-01042


                 James P. Edert 

                 Regional Inspector General for Audit Services 

                 Department of Health and Human Services 

                 Office of the Inspector General 

                 Office of Audit Services Region II 

                 Jacob K Javits Federal Building 

                 26 Federal Plaza - Room 3900 

                 New York, NY 10278 


                 Dear Mr. Edert:

                 This letter is in response to your letter dated October 8, 2013 concerning the Department of
                 Health and Human Services, Office of the Inspector General (OIG) draft report entitled New
                 Jersey Claimed Excessive Medicaid Disproportionate Share Hospital Payments to Four
                 Hospitals. Your letter provides the opportunity for the State to comment on this draft report.

                 Section 1923 of the Social Security Act (the Act) allows states to claim federal reimbursement
                 on disproportionate share hospital (DSH) payments that offset uncompensated costs of
                 provid ing care to uninsured clients and medical assistance clients. However, each facility's
                 DSH payment is lim ited to the provisions of §1923(g)(1) of the Act. T he objective was to
                 determine whether th e State agency claimed federal reimbursement on payments exceeding
                 the limits set forth in §1923(g)(1) of the Act during state fiscal year (SFY) 2007.

                 The draft audit report concluded that the Division of Medical Assistance and Health Services
                 (DMAHS) claimed reimbursement for DSH payments to four hospitals that exceeded the
                 hospital-specific limit by $44,009,536 ($22,004,768 Federal share) . Specifically, the Federal
                 Share of the overpayments referenced In the OIG's draft report is as follows:

                     • 	 Jersey City Medical Center:            $19,405,027
                     • 	 Mount Carmel Guild:                    $ 1,920,171 

                         Capital Health System at Fuld :        s 674,467 

                     • 	 Raritan Bay Medica l Center:           $     5,103

                 We appreciate the opportunity to provide this response. to the draft OIG audit report. Following
                 are the auditors' recommendations and the DMAHS responses:




New Jersey J1.1edicaid Disproportionate Share Hospital Payments {A-02-1()...01042)                                               5
              James P. Edert
              November 22, 2013
              Page 2


              The OIG recommends that New Jersey Refund $22,004,768 to the Federa l Government:

              The State does not concur with the OIG's draft finding and recommended refund. As part of the
              SFY2007 hos pital-specific DSH limit review, the auditor initially requested New Jersey's
              SFY2007 estimated hospital-specific DSH limits calculation. After their review of the estimated
              calculation, a final reconciliation calculation was requested. New Jersey had not previously
              prepared a SFY2007 hospital-specific DSH limit reconcil iation. With CMS' ·requirement for an
              independent certified DSH audit, New Jersey originally deferred to the audit report for the
              reconciliation. However, the SFY2007 was one of the years included in the first independent
              certified DSH audit, and it included several caveats, thus, a reconciling calculation was prepared
              by the State for the OIG auditor.

              The initial reconciliation indicated excess DSH payments for the four hospitals identified in the
              draft report. Additional information specifically related to the uninsured costs for the four
              hospitals was identified and provided to the auditors in April 2013. This uninsured cost
              information is more accurate as the costs are derived from actual claims data for services
              provided to uninsured clients whereas the original reconciliation included an uninsured cost
              estimate based on a percentage of charity care and bad debt charges. The more accurate
              uninsured cost data was reviewed by the auditor but was not included in the hospital-specific
              DSH limit review findings. Incorporating this documentation would have resulted in Capital
              Health System at Fuld, Jersey City Medical Center and Raritan Bay Med ical Center receiving no
              excess DSH payments in SFY2007 (see enclosed chart).

              In addition to more accurate uninsured costs, the State also provided revised Medicaid cost and
              payment information for Mount Carmel Guild based on its final settlement for SFY2007. These
              updates result in Mount Carmel Guild receivipg only $634,391 in excess DSH payments in
              SFY2007 (see enclosed chart).

              Note that the calculations represented in the original and revised reconciliations for all facilities
              do not include Medicaid managed care cost or payment data. Its inclusion would have likely
              resulted in greater hospital-specific DSH limits for all facilities as the State's participati ng
              managed care organizations generally reimburse less than cost

              The OIG Recommends the Establishment of Procedures for Reconciling and Adjusting
              DSH Payments to Hospital-specific Limits:

              The State concurs with the OIG's recommendation in establishing protocols to better assure that
              DSH payments do not exceed the hospitals-specific DSH limits. DMAHS' corrective actions
              include, but are not limited, to the following:

                 1) 	The federal government, through DSH reporting and audit protocols set forth in
                     §19230)(2) of the Act and 42 CFR 447.299, has established the parameters for the
                     calculation of the hospital-specific DSH limits and intends to recover federal
                     reimbursement paid on these excessive claims beginning SPRY 20 11 .

                 2) 	 The State has a pending state plan amendment before CMS that would allow DSH
                      payments in excess of the hospital-specific DSH limit to be reallocated to qualifying
                      facilities, whose payments do not exceed the hospital-specific DSH limit.




New Jersey J1.1edicaid Disproportionate Share Hospital Payments {A-02-1()...01042)                                    6
              James P. Edert
              November 22, 2013
              Page3


                 3) 	 The DMAHS has established the Office of Federal Fund Compliance that ensures the
                      calculation of the hospital-specific DSH lim it complies with federa l rules and that all
                      allowable costs and revenues are included in the calculation. Moreover, the State
                      Medicaid agency is actively working with hospitals that have historically received excess
                      DSH payments in order to properly identify DSH payments that risk exceeding the
                      hospital specific limits.

                 4) 	 The State's DSH payment~ fall under the purview of several agencies. The DMAHS has
                      developed better methods of communication between itself and other agencies, for
                      which the policy of the DSH payments are responsible. This action on the part of the
                      DMAHS provides for better understanding of all DSH issues and helps mitigate the
                      State's financial exposure resulting from excess DSH payments.

             The professionalism , patience and courtesy of the auditors throughout this audit have been
             noteworthy and are greatly appreciated. The opportunity to review and comment on the draft
             report is also appreciated. If you have any questions or require additional information, please
             contact me or Richard Hurd at 609-588-2550.

                                                          Sincerely,



                                                          Valerie Harr
                                                          Director

             VH :H

             c: Jennifer Velez
                Richard Hurd




New Jersey Afedicaid Disproportionate Sfv:ue Hospital Payments {A-02-1()..01042)                                  7
DIVISION OF MEDICAL ASSISTANCE AND HEALTH SERVICES
OFFICE OF REIMBURSEMENT
DRG DISPROPORTIONATE SHARE HOSPITAL SPECIFIC OBRA LIMITS FOR SFY 2007 RECONCILIATION




Original Reconciliation
As represented in Draft Report #A-02-10..()1042
                                                                                                                                      liospitai-Specific
Hospital                                                                                          Hospital-Specific                       Limit Gap
Medicare                                                                            Medicaid            DSH                 DSH            Uninsured
Number




Revised Reconciliation

                                                                                                                                      Hospital-Specific
Hospital                                                                                          Hospital-Specific                      Limit Gap
Medicare                                       Medicaid            Uninsured        Medicaid            DSH                 DSH            Uninsured
Number             Hospi tal Name                 Cost               Cost           Payments            Limit             Payments         Payments

 310039    Raritan Bay Medical Center      s      16,764,490   $    23,570,702 $     12,226,228   $     28,108,964    $    25,397,829 $       2,711 ,135
 310074    Jersey City Medical Center      $      41,494,078   $    90 ,500,389 $    35,028,082   $     96 ,966,385   $    94,399,835 $       2,566,550
 310092    Capital Health System at Fuld   $      11,203,204   $    24.177,531 $     12,263,589   $     23 ,117,146   $    20,870,371 $       2,246,775
 314010    Mount Carmel Guild              $      11,817,494   $     1,330,068 $      9,345,703   $      3 ,800,859   $     4 ,435,250 s       (634 ,391)




          New J ersey lvtedicaid Disproportionate Share Hospital Payments (A-02-1 ~OJ 042)                                                      8
